DEPARTMENT OF HOMELAND SECURITY

   Office of Inspector General


  Independent Review of The U.S. Coast
    Guard’s Reporting of FY 2006 Drug
             Control Funds




OIG-07-70                August 2007
                                                                       Ofice of Inspector Getzeral

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528


                                                                       Homeland
                                                                       Security

MEMORANDUM FOR:               Admiral Thad M. Allen
                              Commandant
                              U.S. Coast Guard

FROM:                         Richard L. Skinne
                              Inspector General
                                                  $z$%/,)   ,&jjz!   &
SUBJECT:                      Independent Review of the U.S. Coast's Guard Reporting of FY 2006
                              Drug Control Fzinds

We have reviewed management's assertions in Section B of the accompanying U.S. Coast Guard's
(USCG) annual report of FY 2006 drug control funds (Submission). The Submission, including the
assertions made, is required by 2 1 U.S.C. 5 1704(d) and Office of National Drug Control Policy
(ONDCP) Circular, Drzig Control Accounting (Circular), and is the responsibility of USCG's
management.

Our review was conducted in accordance with attestation standards established by the American
Institute of Certified Public Accountants. A review is substantially less in scope than an
examination, the objective of which is the expression of an opinion on the assertions in Section B of
the Submission. Accordingly, we do not express such an opinion as a result of our review.

The Independent Auditors ' Report for the FY 2006 financial statements of the Department of
Homeland Security (DHS), of which USCG is a part, identified material weaknesses related to
financial management, financial reporting, and financial systems. USCG contributed to the material
weaknesses in all three areas. USCG currently has a remediation plan to correct these material
weaknesses by FY 2010. Reportable conditions are matters coming to the auditors' attention
relating to significant deficiencies in the design or operation of the internal controls over financial
reporting that, in the auditors' judgment, could adversely affect DHS' ability to record, process,
summarize, and report financial data consistent with the assertions by management in the financial
statements. Material weaknesses are reportable conditions in which the design or operation of one or
more of the internal control components does not reduce to a relatively low level the risk that
misstatements, in amounts that would be material in relation to the financial statements being
audited, may occur and not be detected within a timely period by employees in the normal course of
performing their assigned functions.

Based on our FY 2006 review, except for the effects, if any, of the material weaknesses, as described
above, nothing came to our attention during our review that caused us to believe that management's
assertions included in Section B of the accompanying Submission (Attachment A) are not fairly
stated in all material respects, based on the criteria set forth in the Circular.

During our FY 2005 review, we did not perform any tests related to reprogrammings and transfers
due to what we considered "incomplete criteria against which to evaluate the subject matter, in terms
of measurability and applicability for multi-mission bureaus." However, ONDCP later requested
that we perform additional procedures in these areas to satisfy the requirements. In performing these
additional procedures, we noted that USCG did not have formal mechanisms or procedures in place
to track reprogrammings and transfers affecting drug funds as they occur, or to alert management
when the $5 million threshold is reached so that the necessary approvals can be obtained from
ONDCP. USCG informed us that they were in the process of formalizing procedures for tracking
reprogrammings and transfers. Based on our additional procedures mentioned above and our review
of the FY 2006 submission, we determined that USCG had developed a formal process for handling
reprogrammings and transfers; developed policies and procedures; and begun tracking
reprogrammings and transfers. Based on the information provided by the USCG, reprogrammings
did not meet the $5 million threshold in FY 2006.

Also, in our FY 2005 review we did not test USCG's compliance with ONDCP issued Fund Control
Notices due to what we considered "incomplete criteria against which to evaluate the subject matter,
in terms of measurability and applicability for multi-mission bureaus." However, in our FY 2006
review we looked at USCG's compliance with Fund Control Notices and noted that USCG has a
manual process in place to track compliance with the Fund Control Notices. This process calculates
the total drug obligations from the beginning of the fiscal year to the date of approval of the financial
plan by ONDCP and compares that with one-third of the total drug request for the year to determine
whether obligations were greater or lesser than the request. Based on the process and methodology
used, USCG was in compliance with the Fund Control Notice for FY 2006.

We provided the report to the Coast Guard. The Coast Guard concurred with the report.

This report is intended solely for the information and use of USCG, DHS, ONDCP, and the U.S.
Congress, and is not intended to be and should not be used by anyone other than these specified
parties.

Should you have any questions, please call me, or your staff may contact James L. Taylor,
Deputy Inspector General, at (202) 254-4100.
                            DEPARTMENT OF HOMELAND SECURITY                               Attachment A
                                UNITED STATES COAST GUARD
                                  ANNUAL ACCOUNTING OF
                                FY 2006 DRUG CONTROL FUNDS
                            6A. DETAILED OBLIGATION SUBMISSION

(a) Table of Prior Year Drug Control Obligations (dollars in millions)

                            RESOURCE SUMMARY                                  2006 Actual
      I   Drug Resources by Function:                                     I   Obligations    I
                Interdiction                                                    $1,032,913
                Research and Development                                              -
                                                                                      .900
                                      Total Resources by Function               $1,033,813

          Drug Resources by Decision Unit:    '

                Operating Expenses (OE)                                          $752.188

                 Reserve Training (RT)                                            $16.025

                 Acquisition, Construction, and Improvements (AC&I)              $264.700    /
             a   Research, Development, Test and Evaluation (RDT&E)                  $.900
                                                                          I

                                         Total Drug Control Obligations   I    $1,033,813

(1) Drug Methodolo~v
    Over twenty years ago, the Coast Guard designed its cost allocation methodology to
systematically allocate funding to the Coast Guard's primary mission areas. This methodology
allocated Coast Guard costs based on the time that Coast Guard resources (cutters, aircraft, boats,
and personnel) spent on various types of missions. This view of the Coast Guard budget
provided valuable insight into the multi-mission use of assets and personnel. However, for many
years the only information taken into consideration was the previous year's operational activity.
Prior to 1998, operational data (resource hours) and obligation data were downloaded only at the
end of the fiscal year to develop mission cost allocations for the year just completed and
budgetary projections for current and future years taking into account incremental changes.
Today, the methodology and software have been updated to take advantage of improved
technology. Further, the Coast Guard has developed an operating hour baseline as a method to
allocate resource hours for each resource class to multiple Coast Guard missions. This is the
revised basis for funding allocations in budget projections. The operating hour allocation, or
baseline, is developed and modified based upon line item requests, congressional direction and
national priorities.
   The Coast Guard's drug control funding estimates are computed by closely examining the
decision units, or appropriations, that comprise the Coast Guard's drug control budget estimates.
These decision units consist of: Operating Expenses (OE); Acquisition, Construction, and
Improvement (AC&I); Reserve Training (RT): and Research, Development, Test, and Evaluation
(RDT&E).
(1) Drug Methodology (Continued)

   Each decision unit contains its own unique spending authority and methodology. For
example, AC&I includes funding that can last up to five years after appropriation and RDT&E
funding does not expire. OE and RT funding must be spent in the fiscal year it is appropriated
and therefore the inethodology for these two appropriations is the same.
Operating Expenses
    The majority of the funds the Coast Guard allocates to the drug interdiction program are in
the Operating Expenses (OE) decision unit. OE funds are used to operate Coast Guard facilities;
maintain capital equipment; improve management effectiveness; and recruit, train, and sustain an
active duty military and civilian workforce. In the OE budget, the amount allocated to the drug
interdiction program is derived by allocating a share of the actual expenditures based upon the
amount of time aircraft, cutters, and boats spent conducting drug interdiction activities. The
Coast Guard tracks the resource hours spent on each of the 11 Coast Guard programs by using a
web-based Abstract of Operations (AOPS) data collection and report system. Coast Guard
AOPS data is used to develop the amount of time that each asset class spent conducting each of
the Coast Guard's missions. Using financial data gathered from over 3,000 cost centers around
the United States along with the Abstract of Operations information, the Coast Guard is able to
allocate OE costs to each of the 11 program areas consisting of: Drug Interdiction; Migrant
Interdiction; Ports, Waterways and Coastal Security; Other Law Enforcement; Defense
Readiness; Search and Rescue; Marine Safety; Ice Operations; Marine Environmental Protection;
Living Marine Resources; and Aids to Navigation.
Acquisition, Construction, and Improvements
    In scoring drug control funding requests within the zero-based Acquisition, Construction, and
Improvement (AC&I) decision unit, professional judgment is used to evaluate every line item
requested in the FY 2006 AC&I budget for its anticipated contribution to Coast Guard's 11
program areas. For each AC&I project, a discrete driver is selected to allocate the funding for
that project to the various mission areas of the Coast Guard. In most cases, the driver is the
percentage of time an asset contributes to the drug control mission as determined from the
OEIRT Mission Cost Model (MCM). Otherwise, when a project is not related to any particular
asset or series of asset classes, the project fund may benefit Coast Guard's entire inventory, the
general OE AOPS MCM percentage is utilized. As with the other three appropriations, once the
program percentage spreads are computed for each of these drivers in the FY 2006 AC&I MCM
the total bottom-line mission percentage is applied directly to the AC&I total direct obligations.
After further review of previous years AC&I drug accounting methodology, this improvement
was adopted for two fundamental reasons: (a) to present how total 2006 AC&I multi-year
obligations support Coast Guard's current state of operations rather than dated mission spreads
developed when prior year funding was first requested and; (b) to maintain a repeatable mission
spread process used throughout annual budget year presentations, OMB's MAX budget system
and the CFO's Statement of Net Cost reports.
                             DEPARTMENT OF HOMELAND SECURITY
                                 UNITED STATES COAST GUARD
                                    ANNUAL ACCOUNTING OF
                                FY 2006 DRUG CONTROL FUNDS
                             6 ~ D.ETAILED OBLIGATION SUBMISSION

(1) Drup Methodology (Continued)
Reserve Training
    The Coast Guard allocates a portion of the Reserve Training (RT) decision unit funds to the
drug interdiction program. RT funds are used to support Coast Guard Selected Reserve
personnel who support and operate Coast Guard facilities, maintain capital equipment, improve
management effectiveness, and assist in sustaining all Coast Guard operations. The actual FY
2006 obligations for the RT decision unit is determined using the same methodology used for
OE.
Research, Development, Test and Evaluation
    The final decision unit is Research, Development, Test and Evaluation (RDT&E). As with
the AC&I Appropriation, scoring of drug interdiction funding is accomplished within the zero-
based RDT&E decision unit and every line item requested in the FY 2006 RDT&E budget was
evaluated for its anticipated contribution to drug interdiction efforts. Each RDT&E project, has a
discrete driver that is selected to allocate the funding for that project to the various mission areas
of the Coast Guard. These drivers are based upon experienced professional judgment. Once the
unique program driver is chosen the program percentage spreads as determined from the OEIRT
Mission Cost Model (MCM).
(2) Methodology Modifications
   The methodology described above has not been modified from the previous year.
(3) Material Weaknesses or Other Findings

    As a result of the CFO Act audit, the Coast Guard received material weaknesses in financial
management, financial reporting and financial systems that impact the assurance of information
in our financial reports. As such, we cannot provide assurances as to the integrity of the
financial data contained in this report. Also, as a result of a separate audit relating to the
Statement of Net Cost (SNC) report, the Coast Guard has received specific audit findings
regarding the input processes (SRUFM, AMMIS and AOPS) that directly affect the mission cost
model output reports. The SNC audit found that these input processes had not been adequately
documented and did not have appropriate internal controls to support the existence, accuracy and
completeness of this financial information. The Coast Guard currently has an aggressive
remediation plan to correct these material weaknesses over the next several years.

(4) Reprogrammings or Transfers
   No reprogrammings or transfers of drug related budget resources in excess of the ONDCP's
$5 million threshold occurred during FY 2006.
                            DEPARTMENT OF HOMELAND SECURITY
                                UNITED STATES COAST GUARD
                                  ANNUAL ACCOUNTING OF
                                FY 2006 DRUG CONTROL FUNDS
                            6A. DETAILED OBLIGATION SUBMISSION

(5) Other Disclosures
The following provides a synopsis of the United States Coast Guard's FY 2006 Drug Control
Funds reporting which describes:

1. The agency's overall mission and the role of drug interdiction efforts within the Coast
Guard's multi-mission structure;
2. The Coast Guard's drug control budget submission.

Coast Guard Mission
    The Coast Guard is a military service with mandated national security and national defense
responsibilities in addition to being the United States' leading maritime law enforcement agency
with broad, multi-faceted jurisdictional authority. The Coast Guard is a multi-mission maritime
service consisting of 11 complementary program areas: Drug Interdiction; Migrant Interdiction;
Ports, Waterways and Coastal Security; Other Law Enforcement; Defense Readiness; Search and
Rescue; Marine Safety; Ice Operations; Marine Environmental Protection; Living Marine
Resources; and Aids to Navigation.

    The Coast Guard faces many of the same challenges as the other four military services when
it comes to deciding which assets should be deployed for what missions and where. This is not
only true between the broad categories of missions, but also within sub-sets of the various
missions the Coast Guard undertakes. For example, assets used for the Enforcement of Laws
and Treaties must be divided between drug interdiction and migrant interdiction, as well as
enforcement of fishing regulations and international treaties. Due to the multi-mission nature of
the Coast Guard and the necessity to allocate the effort of a finite amount of assets, there is a
considerable degree of asset "cross-over" between the missions. This crossover contributes to
the challenges the Coast Guard faces when reporting costs for the various mission areas.
Coast Guard's Drug Budget
    In the annual National Drug Control Strategy (NDCS) Budget Summary, all agencies present
their drug control resources broken out by function, and decision unit. The presentation by
decision unit is the one that corresponds most closely to the Coast Guard's congressional budget
submissions and appropriations. It should be noted and emphasized that the Coast Guard does
not have a specific appropriation for drug interdiction activities. All drug interdiction operations,
capital improvements, reserve support, and research and development efforts are funded out of
general Coast Guard appropriations. For the most part, the Coast Guard drug control budget is a
reflection of the Coast Guard's overall budget. The Coast Guard's Operating Expenses
appropriation budget request is incremental, focusing on the changes from the prior year base
brought forward. The Coast Guard continues to present supplementary budget information
through the use of a model, which allocates its base funding and incremental requests by
mission.
(5) Other Disclosures (Cont.)

    This general purpose Mission Cost Model serves as the basis for developing drug control
budget estimates for the OE and RT appropriations and provides allocation percentages used to
develop the drug control estimates for the AC&I and RDT&E appropriations. Similarly, this is
the methodology used to complete our annual submission to ONDCP for the NDCS Budget
Summary.
(1) Obligations by Budget Decision Unit - NIA. As a multi-mission agency, the Coast Guard
is exempt from reporting under this section as noted in ONDCP Circular: Drug Control
Accounting, Sections 6a (1) (b).

(2) Drug Methodology

The following methodology was applied to derive the drug control information presented in the
table in section 6A. The information reported is timely and is derived from an allocation process
involving the Coast Guard's audited financial statement information.

The Coast Guard does not have a discrete drug control appropriation and its financial systems are
not structured to accumulate accounting data by operating programs or missions areas. Drug
control funding data is developed using a systematic process for the OE and RT appropriations,
and a combination of project analysis, subject matter review and OE-based allocations for the
AC&I and RDT&E appropriations.

Data: As outlined in the previous section, the Coast Guard reports its drug control funding to
ONDCP for each of the four appropriations or decision units. The mechanics of how each
decision unit's drug control data is derived as follows:
   Operating Expenses (OE) and Reserve Training (RT) - Budget Authority or Expenditures
   are allocated to the mission areas of the Coast Guard based upon the output of a Mission Cost
   Model (MCM). This is basically an OE expenditure driven model that is used in presenting
   the mission based data shown in the OE and RT budget submissions across the 11 Coast
   Guard programs. The following data sources feed the FY 2006 OEIRT MCM:
       1) Core Accounting System (CAS) - FY 2004 expense data broken down by cost center,
       unit name, allotment fund code, and dollar amount. This data is audited annually as part
       of the Chief Financial Officers Act audit process. These expenses are fed into the
       Standard Rates and User Fees Model (SRUFM), along with Coast Guard's operating cost
       reports of the Engineering Logistics Center (ELC) and Coast Guard Yard and the cost per
       flight hour report from the Aircraft Repair & Support Center (AR&SC). The SRUFM
       uses an activity-based methodology to assign and allocate expenses to the Coast Guard's
       assets and certain non-asset intensive missions, such as Marine Safety. The resulting
       total cost pools serve as one of the major inputs to the Mission Cost Model. If current
       year SRUFM data is not available, the previous year total cost pools are adjusted to fit the
       relevant fiscal year's asset inventory. For example, the FY 2006 actual expenses Mission
       Cost Model uses FY 2004 financial data, adjusted to reflect changes in the Coast Guard's
       asset inventory from FY 2004 to FY 2006. The SRUFM is reconciled to the Coast
       Guard's Statement of Net Cost.
(2) Drug Methodology (cont.)
   2) Naval Electronics Supply Support System (NESSS) - The Coast Guard Engineering
      Logistics Center (ELC) and Coast Guard Yard at Baltimore operate a stand alone
      financial system. Similar to the Core Accounting System, NESSS data is broken down
      by cost center, unit name, allotment fund code, and dollar amount. NESSS expense data
      is fed into the SRUFM and allocated to Coast Guard assets and certain non-asset
      intensive missions. NESSS financial data is included in the Coast Guard's audited
      financial statements.
   3)   fi- The Coast Guard
        Aircraft Repair and Supply Center in Elizabeth City operates a stand alone financial
        system. Similar to the Core Accounting System, AMMIS data is broken down by cost
        center, unit name, allotment fund code, and dollar amount. AMMIS expense data is fed
        into the SRUFM and allocated to Coast Guard assets and certain non-asset intensive
        missions. AMMIS financial data is included in the Coast Guard's audited financial
        statements.
   4) 2006 Baseline and Abstract of Operations (AOPS) - AOPS is a web-based information
      system that reports how an asset (aircraft, boat, or cutter) was utilized across various
      missions of the Coast Guard. Each unit or activity that performs a mission is responsible
      for including the resource hours in the Baseline and AOPS database.
   5) Other Expenses - The drug related pieces that feed this area of the model are the Tactical
      Law Enforcement Teams (TACLET), the Law Enforcement Detachments (LEDET) and
      the Special Projects. The percentage that drives the TACLET ILEDET resource areas are
      computed from team deployment days divided by the total deployment days in the fiscal
      year for the drug interdiction mission. The Special Projects percentage driver is
      formulated from a professional judgment of how funding is used to support costs related
      to counter-drug operations such as Frontier ShieldIFrontier Lance as well as liaison costs
      for Coast Guard's Organized Drug Enforcement Task Force (OCDETF).
   6) Mission Cost Model (MCM) Application & Results - The two chief input drives to the
      MCM are: 1) The financial costs of each Coast Guard asset and other expenses areas,
      made up of direct, support and overhead costs; and, 2) The projected 2006 baseline and
      AOPS hours. The support and overhead costs for each asset and other expenses element
      is applied to hours projected from the 2006 enacted baseline. These costs are reflective
      of the more static conditions of Coast Guard operations relative to the support functions
      and administrative oversight. The direct costs are applied to the final AOPS hours to
      show the dynamic flow of operations experienced during fiscal year 2006. The overall
      affect of the computed from the static baseline and the reality of AOPS results in a
      percentage to drive Coast Guard OE expenditures allocated across 11 programs.
                        DEPARTMENT OF HOMELAND SECURITY
                             UNITED STATES COAST GUARD
                               ANNUAL ACCOUNTING OF
                             FY 2006 DRUG CONTROL FUNDS
                                    6 ~A.SSERTIONS
(2) Drug Methodology (cont.)
   Normalize to BA or Obligations - The program percentages derived from the MCM are
   then applied to total OE and RT fiscal year 2006 budget authority or obligations (see
   Attachments A & B respectively) depending upon the reporting requirement. Budget
   Authority is derived from the agency's annual enacted Appropriation and expenditure data is
   derived from the final financial accounting Report of Budget Execution (SF-133).

   Acquisition, Construction & Improvements (AC&I) - AC&I is a multi-year appropriation
   where funding is available for up to 5 years depending on the nature of the project. The
   methodology used to develop the drug funding estimate is systematically different than that
   of OE and RT. AC&I drug funding levels, for either BA or obligations, is developed through
   an analysis of each projectlline item. For each line item, a discrete driver is selected that best
   approximates the contribution that asset or project, when delivered, will contribute to each of
   the Coast Guard's 11 programs. The total programlrnission area spreads for these drivers are
   based on the FY 2006 AC&I MCM output. To ensure consistency, the extract used for the
   analysis of enacted FY 2006 BA is used for the end of year analysis of obligations as well.
   For FY 2006 AC&I program and mission area spreads, the following data sources and
   methods were used:

   1) AC&I Mission Cost Model - was developed based on data feeds from the FY 2006
      OEIRT MCM model as related in earlier OE and AC&I statements. The following data
      sets were than required to complete the AC&I MCM:
   2) Drug related percentage - The percentage spread for each driver was extracted from the
      OE MCM. This information was M h e r analyzed to:
           (a) Ensure a discrete driver representing either a particular asset, series of assets or
               mission was applied to each project or;
           (b) A general OE percentage driver was used when the project's outcome was
               expected to benefit all inventory and/or agency needs.
   3) Mission cost results/application - Once the project drivers were extracted from the OE
      MCM, they were applied to the total AC&I BA levels derived from the agency's enacted
      Appropriation Bill in the FY 2006 AC&I MCM. The total allocated mission percentages
      from the AC&I MCM were than applied to the total AC&I 2006 obligations as reported
      from the CAS as of September 30,2006 (see Attachment C).

   Research, Development, Test & Evaluation (RDT&E) - RDT&E is a no-year
   appropriation where funding, once appropriated, may be obligated indefinitely in the future
   until all balances are expended. The methodology used to develop the drug-funding estimate
   is similar to AC&I in that drug-funding costs are based on an analysis of each project. The
   programlmission area percentages are based upon subject matter expert review.
                            DEPARTMENT OF HOMELAND SECURITY
                               UNITED STATES COAST GUARD
                                 ANNUAL ACCOUNTING OF
                               FY 2006 DRUG CONTROL FUNDS
                                      6 ~ASSERTIONS
                                          .

(2) Drug Methodology (cont.)
   1) RDT&E Mission Cost Model - was developed based on data feeds from the FY 2006
      OEIRT MCM model as related in earlier OE and AC&I statements. The following data
      sets were than required to complete the RDT&E MCM:
   2) Drug related percentage - The percentage spread for each driver was extracted from the
      OE MCM. This information was further analyzed to:
           a) Ensure a discrete driver representing either a particular asset, series of assets or
              mission was applied to each project or;
           b) A general OE percentage driver was used when the project's outcome was
              expected to benefit all inventory and/or agency needs.
   3) Mission cost results/a~~lication- Once the project drivers were extracted from the OE
      MCM, they were applied to the total RDT&E BA levels derived from the agency's
      enacted Appropriation Bill in the FY 2006 RDT&E MCM. The total allocated mission
      percentages from the RDT&E MCM were than applied to the total RDT&E 2006
      obligations as reported from the CAS as of September 30,2006 (See Attachment D). BA
      data is derived from the agency's enacted Appropriation and expenditure data is extracted
      from a Finance and Procurement Desktop (FPD) transaction summary report by project.
      This revised application from previous year's methodology better defines the current
      state of Coast Guard operations and the management of it's personnel and asset
      inventories.

Other Estimation Methods - Where the MCM allocates a percentage of timeleffort expended to
a given AC&I projectlline item, in some cases changes were made to better represent the drug
costs associated. As noted in the AC&I and the RDT&E methodology, experienced professional
judgment is sometimes used to change a driver based on specific knowledge that a resource will
be used differently than the historical profile indicates. An example of this would be in the
change in the allocation of resource hours associated with a new Great Lakes icebreaker. In the
past, icebreakers have dedicated a majority of their annual resource hours to ice breaking with
the remainder of the annual resource hours being allotted to environmental response. The new
icebreaker is being designed as more of a multi-mission asset that will be tasked with aids to
navigation, marine safety, and search and rescue and aids to navigation missions in addition to its
ice breaking activities. This change requires that the MCM allocation for this resource be
manually adjusted, based on professional judgment, to reflect the change in the planned
operating profile for the new icebreaker.

Financial Systems - Data is derived from CAS, ELC, Coast Guard Yard systems. No other
financial systems or information are used in developing program or mission area allocations.
(3) Application of Drug Methodology - The methodology disclosed in this section was the
    actual methodology used to generate the table required by Section 6A. Documentation on
    each decision unit is provided.

(4) Reprogrammings or Transfers -- No reprogrammings or transfers of drug related budget
    resources in excess of the ONDCP's $5 million threshold occurred during FY 2006.

(5) Fund Control Notices - The FY 2006 data presented herein is associated with obligations
    reported in Coast Guard's FY 2006 financial plan that hlly complies with all Fund Control
    Notices issued by the Director under 21 U.S.C. Section 1703(f) and Section 8 of ONDCP
    Circular, Budget Execution, dated April 18,2003.
                                                                            Attachment A

                          OPERATING EXPENSES (OE)
                         MISSION COST MODEL OUTPUT:
                                                                  (dollars in thousands)
                                                                         FY 2006
                                                                Obligations      % of total

1.   Search and Rescue (SAR)                                       579,880         10.67%

2.   Marine Safety (MS)

3.   Aids to Navigation (ATON)

4.   Ice Operations (10)

5.   Marine Environmental Protection (MEP)
                                                            1      132,420
                                                                                    2.44%

6.

7.
     Living Marine Resources (LMR)

     Drug Interdiction
                                                            I      490,779
                                                                                    9.03%



8.   Other Law Enforcement (OTH-LE)

9.   Migrant Interdiction

10. Ports, Waterways & Coastal Security (PWCS)

11. Defense Readiness
                                                            1    19206,508
                                                                                   22.20%


                                     Total OE Obligations
                                                                          Attachment B

                            RESERVE TRAINING (RT)
                         MISSION COST MODEL OUTPUT:
                                                                (dollars in thousands)
                                                                       FY 2006
                                                              Obligations      % of total

1.   Search and Rescue (SAR)

2.   Marine Safety (MS)

3.   Aids to Navigation (ATON)

4.   Ice Operations (10)

5.

6.
     Marine Environmental Protection (MEP)

     Living Marine Resources (LMR)
                                                         I1         2,821

                                                                   10,456
                                                                                  2.44%

                                                                                  9.03%

7.   Drug Interdiction

8.   Other Law Enforcement (OTH-LE)                                 1,469         1.27%

9.   Migrant Interdiction
                                                         I          6,763         5.84%

10. Ports, Waterways & Coastal Security (PWCS)

11. Defense Readiness                                    I         7,914          6.84%
                                     Total OE obligations( $     115,757           100%
                                                                   Attachment C


     ACQUISITION, CONSTRUCTION and IMPROVEMENTS
             MISSION COST MODEL OUTPUT:
                                                          (dollars in thousands)
                                                                 FY 2006
                                                        Obligations      % of total

1.    Search and Rescue (SAR)                               100,434        11.87%

2.    Marine Safety (MS)                                     22,192         2.62%

3.    Aids to Navigation (ATON)                              30,227         3.57%

4.    Ice Operations (IO)                                     4,662         0.55%

5.    Marine Environmental Protection (MEP)                  15,679         1.85%

6.    Living Marine Resources (LMR)                         135,847        16.06%

7.    Drug Interdiction                                     264,700        31.28%

8.    Other Law Enforcement (OTH-LE)                         19,137         2.26%

9.    Migrant Interdiction                                   94,803        11.20%

10. Ports, Waterways & Coastal Security (PWCS)              112,453        13.29%

11. Defense Readiness                                        45,988         5.44%
                                   Total OE Obligations $   846,122          100%
                                                                     Attachment D


     RESEARCH, DEVELOPMENT, TEST and EVALUATION
            MISSION COST MODEL OUTPUT:
                                                            (dollars in thousands)
                                                                   FY 2006
                                                          Obligations      % of total

1.   Search and Rescue (SAR)                                    1,612         9.21%

2.   Marine Safety (MS)                                         3,025

3.   Aids to Navigation (ATON)                                  2,757

4.   Ice Operations (10)                                            86

5.   Marine Environmental Protection (MEP)                      6,374

6.   Living Marine Resources (LMR)                                489         2.79%

7.   Drug Interdiction                                            900

8.   Other Law Enforcement (OTH-LE)                               132

9.   Migrant Interdiction

10. Ports, Waterways & Coastal Security (PWCS)
                                                     I1           317

                                                                1,447         8.26%     1
11. Defense Readiness
                                  Total OE Obligations
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
